        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Special Report
The Department of Energy's
Management of the Award of a $150
Million Recovery Act Grant to LG
Chem Michigan Inc.




OAS-RA-13-10                     February 2013
                                 Department of Energy
                                   Washington, DC 20585
                                       February 8, 2013

MEMORANDUM FOR THE UNDER SECRETARY OF ENERGY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Special Report on "The Department of Energy's
                         Management of the Award of a $150 Million Recovery Act Grant to
                         LG Chem Michigan Inc."

BACKGROUND

The Department of Energy's Vehicle Technologies Program was established to develop and
deploy efficient and environmentally friendly highway transportation technologies to reduce the
Nation's dependence on foreign oil and provide greater energy security. The Vehicle
Technologies Program received $2.4 billion under the American Recovery and Reinvestment Act
of 2009 for these purposes. The program is managed by the Office of Energy Efficiency and
Renewable Energy and is being implemented and monitored primarily by the Department's
National Energy Technology Laboratory (NETL).

In February 2010, LG Chem Michigan Inc. (LG Chem Michigan), formerly Compact Power Inc.,
was awarded more than $150 million in Recovery Act funding to help construct a $304 million
battery cell manufacturing plant in Holland, Michigan. As part of this process, LG Chem
Michigan was also eligible to receive more than $175 million in tax relief from the State and
local governments through 2025. The objective of the project was to design, construct, start up
and test a production facility for lithium-ion polymer batteries, create more than 440 jobs, and
produce enough battery cells annually to equip 60,000 electric vehicles by the end of 2013, with
assembly beginning in 2012.

On October 24, 2012, the Office of Inspector General received a complaint that LG Chem
Michigan misused Recovery Act funds. The complainant asserted that employees at the
Michigan facility had little work to do and were spending time volunteering at local non-profit
organizations, playing games and watching movies at the expense of the Federal government and
taxpayers. In a separate action, the Department's Chief of Staff and its General Counsel brought
similar concerns to our attention. We initiated this review to examine the allegations and to
evaluate the Department's management of the Recovery Act grant awarded to LG Chem
Michigan.

RESULTS OF REVIEW

We confirmed the allegations. We found that work performed under the grant to LG Chem
Michigan had not been managed effectively. Based on progress to date and despite the
expenditures of $142 million in Recovery Act funds, LG Chem Michigan had not yet achieved
the objectives outlined in its Department-approved project plan.
                                                 2


The allegation that the Department reimbursed LG Chem Michigan for labor costs that did not
support the goals and objectives of the grant was substantiated. Our review revealed that LG
Chem Michigan inappropriately claimed and was reimbursed for labor charges incurred by a
variety of supervisory and staff employees for activities that did not benefit the project. Through
interviews with LG Chem Michigan management and other staff, we confirmed that employees
spent time volunteering at local non-profit organizations, playing games and watching movies
during regular working hours. As such, we determined that the Department reimbursed the
company for questionable labor costs incurred in the third quarter of 2012. We were unable to
calculate the exact loss to the Government because LG Chem Michigan did not track labor
activities in detail. However, based on LG Chem Michigan employee revelations regarding
work habits, we believe it is likely that the total amount of charges that included at least some
non-productive work exceeded $1.6 million, about $842,000 of which was reimbursed by the
Department in accordance with its cost-sharing arrangement for the project. The projected
overpayment by the Department assumes that LG Chem Michigan complied with the terms of its
grant to share costs on an equal basis, an aspect that we did not confirm.

We found that the overall goals related to production of battery cells and the projected number of
jobs created had yet to be met. In particular:

   •   Even though the facility had produced a large number of test cells, the plant had yet to
       manufacture battery cells that could be used in electric vehicles sold to the public.

   •   Only about 60 percent of the production capacity set forth in the grant agreement was
       constructed even though nearly $142 of $151 million (94 percent) of the Department's
       share of project funds had been spent. LG Chem Michigan officials estimated that the
       Department's 50 percent share of the cost to complete the five production lines called for
       by the grant agreement would be $22 million, an amount that would significantly exceed
       the remaining funds available under the grant award. These same officials noted,
       however, that they had no plans to complete the remaining lines unless demand improved
       dramatically. We found that LG Chem Michigan had significantly underestimated labor
       costs and that this was a primary cause of its inability to complete planned construction.

   •   Project documentation prepared to support the grant award indicated that production of
       battery cells would transition from LG Chem's South Korean facility to the Michigan
       plant beginning in 2012, assuming that demand grew as expected. LG Chem Michigan
       officials indicated that they had not begun production at the facility because demand for
       the Chevrolet Volt, the U.S. manufactured vehicle for which the plant was to produce
       battery cells, had not developed as anticipated.

   •   Less than half of the expected number of jobs had been created to support the project.
       The period of performance for the grant runs through May 2013. Yet, based on progress
       and current plans of LG Chem Michigan officials at the time of our review, the expected
       benefits of the project are not likely to be realized within the originally anticipated
       timeframes.
                                               3


The problems we identified occurred, in large part, due to grant monitoring issues with LG Chem
Michigan and the Department. Notably, LG Chem Michigan did not fully realize the grant's
target goals, and the Department did not always take sufficient action to ensure adequate
oversight of project progress and, in turn, protect the taxpayers $142 million investment in the
project. For instance, LG Chem Michigan officials told us that they made a decision to delay
production of battery cells at the Michigan facility. LG Chem Michigan officials made that
decision even though demand for the Chevrolet Volt averaged 1,955 vehicles per month in 2012.
That volume could have readily been produced by using the then built-out capacity of the
Michigan plant. NETL officials commented that it was anticipated at the time the grant was
awarded that the transition of production from non-U.S. sources to Michigan would occur;
however, language requiring the shift in production had not been incorporated into the grant.
Thus, they asserted that the Department had no leverage to require the shift in production to the
Michigan plant. Yet, until the shift in production takes place or some alternative use for the
plant is developed, U.S. taxpayers will receive little direct benefit from a plant for which they
provided up to half of the funding.

Further, LG Chem Michigan officials told us that the vast majority of the increase in project
costs was due to errors in estimating labor costs. For example, LG Chem Michigan failed to
account for the Recovery Act requirement to utilize Davis-Bacon Act wage rates for
subcontractors. We found this lapse hard to understand given the emphasis placed on strict
compliance with Davis Bacon as one of the Recovery Act's basic principles, a fact that was well
known to industry and to responsible Department officials.

In addition, LG Chem Michigan management had not adequately implemented the terms and
conditions of the grant agreement as related to unallowable costs. For instance, company
officials we spoke with conceded that they submitted all labor costs for reimbursement because,
as they asserted, they were unfamiliar with the types of costs that were allowable/unallowable.
We found, however, that grant documentation and related Federal regulations clearly established
what types of costs were permissible.

We also noted a lack of effective monitoring of grant activities by NETL related to project
progress and labor reimbursements. For example, even though there were indications that the
project was not progressing as planned early in 2012 – reflected by employee furloughs,
construction delays and cost overages – NETL had not taken action to determine whether
payments to LG Chem Michigan should be suspended until further review of the project.
Notably, the Office of Energy Efficiency and Renewable Energy had taken action to suspend
reimbursements for labor charges when it became aware of potential improprieties in October
2012. In preliminary comments on our report, officials also stated that documentation received
from LG Chem Michigan did not indicate that the project would not ultimately meet its goals and
objectives. In addition, we determined that the Federal project monitoring process had not
identified the questionable labor activities highlighted in our report.

                                Production and Transition Issues

LG Chem Michigan officials told us that they were faced with difficult decisions regarding the
workforce at the Michigan facility. Plant managers noted that they wanted to do their best to
maintain the workforce in hopes that production would start soon. They also indicated that they
                                                 4


resorted to furloughs and permitted employees to engage in non-productive activities to help
ensure that their investment in training the employees was not lost. In addition, LG Chem
Michigan officials indicated that their range of options was limited, claiming that shifting
production to the Michigan plant at this point would actually result in financial losses on battery
cells produced in the U.S.

We acknowledge that company officials were faced with difficult choices, with lack of demand
for the product being at the core of LG Chem Michigan's problem. Yet, the basic question for
Federal grant administrators, in our opinion, was whether grant funding should have continued or
suspended once it became clear that: (i) all the promised production lines could not be
completed within budget; and, (ii) LG Chem Michigan would continue to fill U.S. demand with
battery cells made in South Korea. In light of those realities, we question whether Federal
reimbursements for labor payments for any of the plant's employees and other project costs
should have continued without a thorough re-evaluation of the project. At the time these facts
became known, in our judgment, business risk for the endeavor should have shifted to LG Chem
Michigan and should not have been borne, even in part, by the U.S. taxpayer. Ironically,
program officials told us that they were considering a request from LG Chem Michigan to extend
the grant period until 2016.

                                     Impact and Path Forward

The LG Chem Michigan grant recipient faced a number of challenges. Most notably, the
demand for battery cells to be produced at the Michigan plant was less than anticipated,
frustrating efforts by the Department and its Recovery Act grant recipient to promote the use of
electric vehicles and reduce the Nation's dependence on foreign oil. To its credit, NETL had
initiated prompt actions related to resolving issues highlighted in the complaint initially referred
to us by the Recovery Accountability and Transparency Board, including recovering
presumptively unallowable labor reimbursements identified in our report and requiring LG Chem
Michigan to submit an action plan to address concerns with the progress of the project.

While the efforts of the Department and LG Chem Michigan's immediate reaction to the
allegations resulted in recovery of the non-productive labor charges, the results of our review
indicated that more fundamental issues existed, limiting the possibility that the objectives of the
project will be met. Without improvements, the Department may continue to reimburse LG
Chem Michigan for costs that do not support the intent of the grant. As such, we have made a
series of recommendations that should assist the Department in managing its Vehicle
Technologies Program as it relates to LG Chem Michigan and similarly situated grantees.

MANAGEMENT REACTION

Management concurred with the report's recommendations and indicated that it had taken and/or
initiated corrective action to address issues identified in our report.

In its comments on the report, officials confirmed that LG Chem Michigan had reimbursed the
Department for the $842,000 in costs that we had found to be unreasonable and unallowable.
However, management noted that this was only a very small percentage of the overall grant. We
                                                5


think that this comment misses the point. First, our review of costs incurred was limited to costs
related to unproductive labor charges by LG Chem Michigan – that is, those charges identified in
the initial allegation relating to idle workers playing board games and watching movies at
Government expense. Thus, we did not evaluate the reasonableness of the larger body of
incurred costs. Second, we leave it to each reader of the report to make their own judgment as to
the significance of a $842,000 reimbursement. Finally, the audit surfaced issues relating to the
management of this grant which transcend the reimbursed amount in importance.

Management's comments and our response are summarized and more fully discussed in the body
of the report. Management's formal comments are included in their entirety in Appendix 3.

Attachment

cc:   Deputy Secretary
      Assistant Secretary for Energy Efficiency and Renewal Energy
      General Counsel
      Chief of Staff
SPECIAL REPORT ON THE DEPARTMENT OF ENERGY'S
MANAGEMENT OF THE AWARD OF A $150 MILLION RECOVERY ACT
GRANT TO LG CHEM MICHIGAN INC.


TABLE OF
CONTENTS


Project Performance and Cost

Details of Finding ................................................................................................................1

Recommendations and Comments .......................................................................................9


Appendices

1.    Objective, Scope and Methodology ...........................................................................11

2.    Related Reports ..........................................................................................................12

3.    Management Comments .............................................................................................13
THE DEPARTMENT OF ENERGY'S MANAGEMENT OF THE AWARD OF A
$150 MILLION RECOVERY ACT GRANT TO LG CHEM MICHIGAN INC.

PROJECT         The Department of Energy (Department) and LG Chem Michigan
PERFORMANCE     Inc. (LG Chem Michigan) had not effectively managed grant
AND COST        activities related to the Electric Drive Vehicle Battery and
                Component Manufacturing Initiative (Manufacturing Initiative).
                In particular, based on progress at the time of the report and
                despite the expenditure of $142 million in American Recovery and
                Reinvestment Act of 2009 (Recovery Act) funds, we found that
                production and job creation goals and objectives outlined in the
                Department-approved project plan are unlikely to be achieved
                within anticipated timeframes. Furthermore, LG Chem Michigan
                inappropriately claimed and was reimbursed for labor costs that
                did not support the purpose/objective of the grant, including costs
                for workers to perform volunteer activities, play games and watch
                movies during regular work hours.

                                   Project Goals and Objectives

                We found that the goals and objectives of the Manufacturing
                Initiative had not yet been met. The objective of the project was to
                design, construct, start up and test a production plant for lithium-
                ion batteries to support the manufacture of 60,000 electric vehicles
                by the end of 2013. Although assembly operations were to begin
                at the Michigan plant in 2012, we noted that goals related to
                production of battery cells and the number of jobs created had not
                been achieved. While the period of performance for the grant will
                continue until at least May 2013, and many variables affect
                whether goals are realized, our evaluation indicated that the
                expected benefits of the project are unlikely to be realized within
                the originally anticipated timeframes. In particular:

                   •   Although LG Chem Michigan had made significant
                       progress related to completion of design, construction and
                       testing of the plant, it had not begun production of battery
                       cells for commercial use. We noted that while a large
                       number of test cells had been created as of June 2012, the
                       plant had yet to have the entire production process tested
                       and validated and, therefore, had not generated any cells
                       that could be used in electric vehicles sold to the public.

                    • Grant award documentation indicated that production of
                       battery cells was scheduled to transition to the Michigan
                       plant from non-U.S. sources beginning in 2012, assuming
                       that demand achieved expected levels. However, we found
                       that this had not occurred. The project plan called for
                       beginning production of battery cells in 2012, at the



Page 1                                                           Details of Finding
             Michigan plant, with production of all Chevrolet Volt
             battery cells occurring at the Michigan plant by the end of
             2013. LG Chem Michigan officials commented, however,
             that while they were prepared to begin production, they had
             not begun the transition to the Michigan plant due to lower
             than expected demand for electric vehicles.

         •   Production capacity set forth in the grant agreement had not
             been realized even though nearly all the Department's share
             of project funds had been spent. Specifically, the project
             plan called for 5 production lines that would each produce
             enough battery cells annually to support at least 12,000
             vehicles. However, despite spending $142 million (94
             percent) of funds available from the Department, only three
             of five production lines had been constructed. LG Chem
             Michigan officials estimated that construction of the
             additional lines, if completed, would cost about $44
             million. Under the terms of the grant, the Department's
             share would be $22 million, which would significantly
             exceed the remaining grant funds. Based on our review of
             available documentation, we determined that the vast
             majority of the increase in project costs was due to higher
             than expected labor costs. Specifically, despite budgeting
             $15 million for the installation of all equipment, LG Chem
             Michigan had spent nearly $30 million by the time of our
             review on completing only three of the five production
             lines. Furthermore, LG Chem Michigan officials indicated
             that the company had indefinitely delayed plans to
             construct the final two assembly lines.

         •   Although project planning documentation estimated that
             the project would create more than 440 jobs by the end of
             2012, less than half of the expected number of jobs had
             actually been created. We found that the plant reached a
             peak of 215 jobs in early 2012, but the number of
             employees had dropped to 200 by the time of our review.
             To help compensate for the lack of production and reduce
             operating costs, plant management decided to furlough
             employees beginning in April 2012. The furloughs
             continued at the time of our review and, according to plant
             officials, had saved the company nearly $580,000 to date, a
             portion of which was realized by the Department. With no
             firm plans to begin production, it is unclear how and when
             the idle capacity will be addressed.




Page 2                                               Details of Finding
                                   Labor Activities

         We concluded that the Department paid LG Chem Michigan for
         labor costs that did not support the goals and objectives of the
         grant. Specifically, our review of worker activities at LG Chem
         Michigan, including supervisors, operators and engineers,
         indicated that employees used regular work hours to volunteer at
         local organizations, play board, card and video games and watch
         movies. As such, we determined that the Department may have
         reimbursed the company up to about $842,000 for questionable
         labor charges for just the third quarter of 2012. In particular, we
         found:

            •   16 of 26 employees interviewed had participated in various
                volunteer activities during normal work hours in recent
                months. Based on our evaluation, we determined that the
                volunteer work began in or around August 2012, and
                continued until November 2012. This included volunteer
                work at Habitat for Humanity, animal shelters and outdoor
                nature centers, among others. While our interviews
                demonstrated that these activities had taken place, we were
                unable to quantify the number of days spent on volunteer
                work because the company did not track labor activities to
                this level of detail. Our test work indicated, however, that
                the amount of time spent volunteering ranged from one day
                for certain employees to 5 days per week for others. In
                total, the cost of labor for the third quarter was about $2.3
                million, including $1.7 million for direct labor charges and
                $670,000 in related fringe benefits.

            •   13 of 26 employees we spoke with had participated in
                various activities at work that were not appropriate for
                reimbursement by the Department, including watching
                movies and playing board, card and video games. We
                determined that these activities generally began prior to the
                volunteer work and continued until just before the time of
                our review. For instance, at least two individuals
                interviewed believed that such activities began prior to July
                2012, but did not provide any documentation to support this
                assertion. Similar to the volunteer work, we were unable to
                quantify the amount of time spent on these activities
                because the company did not track labor to this level of
                detail.

         National Energy Technology Laboratory (NETL) officials became
         aware of the questionable activities as a result of media reports and
         notified LG Chem Michigan on November 1, 2012, that it would


Page 3                                                    Details of Finding
                                    not be reimbursed for its share of more than $531,000, or
                                    approximately $265,500 (half of $531,000), in labor costs
                                    occurring in the third quarter of 2012. We determined, however,
                                    that the amount of questionable labor costs may be much higher.
                                    Specifically, NETL's estimate only included costs for production
                                    supervisors and operators, but did not include costs of more than
                                    $482,000 for several other categories of employees that also
                                    participated in volunteer activities, game playing and movie
                                    watching during work hours. The estimate developed by NETL
                                    was based on inaccurate information provided by LG Chem
                                    Michigan regarding which individuals had participated in
                                    volunteer activities. Based on our review, we are questioning costs
                                    of up to about $842,000, as summarized in the following table.

                                                                                                  Labor
                                                                                                 Costs by      Questioned
                                                                                  Total        Functional        Labor
                                              Functional Group                 Employees          Group          Costs1
                                     Construction                                    5              $49,798              -
                                     Production Engineers                           20            $283,266       $283,266
                                     Production Supervisors                          4              $48,427      $48,427*
                                     Production Operators                           101           $483,037      $483,037*
                                     Electrode Engineer                              5              $55,885              -
                                     Electrode Operators                             12             $56,049        $56,049
                                     Administrative Personnel                       22            $407,514               -
                                     Preventive Maintenance Technicians              8              $81,314              -
                                     Preventive Maintenance Engineers                3              $47,534              -
                                     Quality Assurance Engineers                     6              $75,940        $75,940
                                     Quality Assurance Operators                    14              $67,400        $67,400
                                     Total Direct Labor                             200         $1,656,164      $1,014,119
                                     Fringe Benefits                                              $670,258       $670,258
                                     Total Labor                                                $2,326,422      $1,684,377
                                                                               Department's Share of Cost             50%
                                                                               Total Questioned Costs            $842,189
                                       * These costs were initially questioned by NETL. The calculation of
                                         questioned costs assumes that LG Chem Michigan complied with the
                                         terms of its grant to share costs equally – an aspect that we did not
                                         confirm.

                                    The decision of the company to permit employees to perform
                                    questionable activities using Department funds did not support the
                                    goals and objectives of the grant agreement, and therefore, was a
                                    questionable cost. LG Chem Michigan management told us that it
                                    was unaware that these costs may be considered unallowable and
                                    would work with the Department to address the situation. We
                                    found, however, that grant terms and readily available Federal
                                    regulations on the subject clearly established the types of costs that

1
  We did not question costs for certain labor categories because our sample of interviews did not identify individuals
that participated in activities that did not support the goals and objectives of the project.


Page 4                                                                                         Details of Finding
                           were appropriate. Subsequent to our review, Department officials
                           provided evidence that they had fully recovered the questioned
                           costs identified in our report.

Project Implementation The problems we identified occurred, in part, because LG Chem
and Monitoring         Michigan had not effectively implemented activities that supported
                       the goals and objectives of the Manufacturing Initiative. In
                       addition, many of the issues identified were due to the lack of
                       effective monitoring of grant activities by NETL related to project
                       progress and labor reimbursements. Furthermore, the goals and
                       objectives of the project were not met within the estimated
                       timeframes, in part, because electric vehicle sales were lower than
                       anticipated.

                                                     Grant Activities

                           Senior LG Chem Michigan officials decided to retain production
                           of battery cells outside of the U.S. rather than transition operations
                           to the Michigan plant because the demand for electric vehicles was
                           lower than anticipated. LG Chem Michigan officials made that
                           decision even though demand for the Chevrolet Volt, the U.S.
                           manufactured vehicle for which the plant was to produce batteries,
                           averaged 1,955 vehicles per month for 2012. That volume could
                           have readily been produced by using the then built-out capacity of
                           the Michigan plant. In addition, while the potential for production
                           overcapacity was highlighted as a significant risk in the Project
                           Management Plan when the grant was awarded, LG Chem
                           Michigan's response indicated that demand for electric vehicles
                           was strong enough to mitigate these concerns and that supply
                           agreements with other major vendors would be obtained. At the
                           time of our review, however, no other agreements had been
                           established.

                           LG Chem Michigan also had not appropriately implemented the
                           terms and conditions of the grant as related to potentially
                           unallowable labor costs. In particular, company officials we spoke
                           with explained that they were unfamiliar with all of the nuances of
                           the agreement because they had never received grant funds from
                           the Department prior to the Recovery Act. However, we noted that
                           the terms and conditions of the grant referred to Department
                           Financial Assistance Regulations, 10 CFR 600, which
                           demonstrated the types of activities that were permissible under the
                           terms of the award. For instance, Federal regulations state that
                           costs could be considered reasonable, and therefore reimbursable,
                           if ordinary and necessary for the conduct of business or contract
                           performance. LG Chem Michigan management also noted that it



Page 5                                                                       Details of Finding
         made the decision to pay individuals to support local community
         activities rather than potentially terminating their employment due
         to a lack of production. They explained that this decision was
         made in response to the high cost to train workers and the fluidity
         in vehicle sales projections. However, we continue to question
         whether the cost for various activities should have been reimbursed
         by the Department as it did not appear reasonable to meet the
         intent of the grant. In our opinion, the cost of business decisions
         made by LG Chem Michigan should be absorbed by the company,
         not the U.S. taxpayer.

                             Monitoring and Oversight

         The issues identified were also due to a lack of effective
         monitoring of grant activities by NETL related to project progress
         and labor reimbursements. For example, even though there were
         indications that the project was not progressing as planned –
         including employee furloughs, construction delays and cost
         overages – NETL had not taken action to determine whether
         payments to LG Chem Michigan should have been suspended
         pending further review of the project. In particular, although a
         technical review of the project's budget was completed during the
         grant award process, NETL did not require LG Chem Michigan to
         take corrective action when it became evident that the cost of the
         project would exceed the planned budget. For instance, our review
         of a site visit checklist completed by Federal officials in August
         2012, did not include any discussion related to a comparison of
         cost versus capacity. In fact, documentation we reviewed
         indicated that the project was on track to meet program milestones
         and that there were no concerns with project progress. In addition,
         LG Chem Michigan officials told us that the vast majority of the
         increase in project costs was due to errors made by the company in
         estimating labor costs. While NETL completed a technical review
         of the budget, it did not ensure that LG Chem Michigan accounted
         for the requirement to utilize Davis-Bacon Act wage rates for
         subcontractors.

         We also determined that NETL did not question LG Chem
         Michigan's decision to delay production at the Michigan plant.
         NETL officials commented that while they were aware of the
         planned transition to the Michigan plant as part of the grant
         documentation, they stated that the Department could not interfere
         with LG Chem Michigan's business decisions and noted that this
         did not impact the need to establish the award. In preliminary
         comments on our report, officials noted that the project plan
         included language related to transitioning production to Michigan,



Page 6                                                   Details of Finding
         but that factor had never been incorporated in the terms of the
         grant award. Federal officials also indicated that although the final
         two assembly lines were not installed, failure to complete the
         planned capacity would not impact the maximum amount of the
         Department's contribution. Senior LG Chem Michigan officials
         commented, however, that there were no plans to install the
         additional lines in the near future due to lower than expected
         demand for electric vehicles.

         In addition, we determined that the Federal project monitoring
         process had not identified the questionable labor activities
         highlighted in our report. Although the Federal Project Manager
         visited the plant at the end of August 2012 – after many of the
         volunteer activities, games and movies had already begun – the
         issues were not identified. In light of the indications that the
         project was not progressing as planned and production had not
         begun, we believe it would have been prudent for Federal officials
         to inquire about employee activities given the large number of
         individuals employed at the plant. Had officials spoken to project
         engineers and/or operators about what they were doing during
         periods of inactivity, the questionable activities may have been
         identified. In fact, we do not believe that the monitoring process
         used by NETL would have ever identified the labor issues
         highlighted in our report. To its credit, NETL took immediate
         actions to respond to the allegations of labor improprieties,
         including suspending payments for labor, initiating cost recovery
         proceedings and directing LG Chem Michigan to develop
         corrective action plans.

                                   Market Factors

         NETL and LG Chem Michigan officials told us that lower than
         anticipated sales of electric vehicles also played a significant role
         in the progress of the Manufacturing Initiative. Specifically,
         although initial demand projections at the time of award were for
         60,000 vehicles per year, 2012 sales totaled only 23,461. As a
         result, LG Chem Michigan officials decided to construct only three
         of the five planned production lines for the lithium-ion polymer
         batteries used to manufacture electric vehicles. LG Chem
         Michigan officials stated that they had placed an order for
         equipment to support assembly of a fourth production line, but
         suspended the order in December 2011, due to the lack of activity
         at the plant. While we recognize that the demand for electric
         vehicles was a significant factor impacting the success of the plant,
         the issues identified in our report demonstrate that there were also
         opportunities for enhanced project management practices



Page 7                                                    Details of Finding
                  that should have been utilized to help implement the project in an
                  effective manner.

                  Lack of demand and progress problems should have, in our
                  opinion, prompted Federal officials to intensify/focus their review
                  efforts on determining whether funding for the plant should have
                  continued or should have been suspended pending further review.
                  Notably, LG Chem Michigan officials told us that they have no
                  specific plans to begin production in Michigan because of low
                  demand. Even though NETL officials were aware of this fact, they
                  told us that they could not interfere with business decisions of the
                  company. Instead, they elected to continue to fund, in essence,
                  business risks that, in our opinion, should have been assumed by
                  LG Chem Michigan when it became apparent the goals of the grant
                  would not be achieved within the originally anticipated
                  timeframes. Unless and until production begins at the Michigan
                  plant, in our opinion, the U.S. taxpayer will garner little benefit
                  from its $143 million investment.

Impact and Path   The Department faced a number of challenges in managing the LG
Forward           Chem Michigan grant, particularly in light of the less than
                  expected demand in the target market for battery cells to be
                  produced at the Michigan plant. Without improvements, however,
                  the Department may continue to reimburse LG Chem Michigan for
                  costs that are questionable. For instance, as a result of the issues
                  noted in this report, we identified up to about $842,000 in
                  questionable costs related to reimbursements for labor charges that
                  did not support the intent of the grant.

                  In addition, we are concerned that the goals and objectives of the
                  grant may not be fully achieved due to lower than expected
                  demand for electric vehicles. While the lack of electric vehicle
                  demand for the project was a significant factor to the issues
                  identified in our report, senior LG Chem Michigan officials
                  countered that the plant remained critical to the long-term strategy
                  of the company and believed that it would eventually succeed –
                  whether through increased demand for vehicle batteries or
                  expanding the scope of plant activities to produce other products
                  such as energy storage solutions. However, until the company
                  begins production at the Michigan plant or develops some
                  alternative use for the plant, U.S. taxpayers will receive little direct
                  benefit from a plant for which they provided at least half of the
                  funding.




Page 8                                                               Details of Finding
RECOMMENDATIONS   To improve management of the Manufacturing Initiative and help
                  achieve the goals of the Recovery Act, we recommend that the
                  Assistant Secretary for Energy Efficiency and Renewable Energy
                  direct Vehicle Technologies Program officials to:

                       1. Enhance grant monitoring procedures to ensure that goals
                          and objectives of the Manufacturing Initiative are
                          achieved in the most effective manner;

                       2. Utilize the full range of remedial actions available to the
                          government under the terms of the grant to hold LG
                          Chem Michigan accountable for the outcome of the
                          Michigan project; and,

                       3. Coordinate with LG Chem Michigan officials to facilitate
                          either beginning battery cell production at the Michigan
                          plant or implementation of some alternative, productive
                          use for the plant.

                  We also recommend that the contracting officers for the Vehicle
                  Technologies Program:

                       4. Evaluate questioned costs identified in our report and
                          recover overpayments made to LG Chem Michigan.

MANAGEMENT        Department management agreed with the report's recommendations
REACTION          and stated that it had initiated actions to address the issues
                  identified. For instance, management stated that it had taken
                  action to disallow project costs identified in our report, although it
                  noted that the unallowable labor costs represent less than 1 percent
                  of EERE's contribution to the project. Management commented
                  that while it was considering a request from LG Chem Michigan to
                  extend the period of performance for the grant, the extension
                  would not, in and of itself, increase the project's value or the
                  Department's share of the project costs. In addition, management
                  stated that it is committed to effective grants management and
                  strives to implement sound grants management practices.
                  Management also commented that, concurrent with our review, it
                  provided guidance to LG Chem Michigan to assure a clear
                  understanding of the reporting requirements as the project moves
                  forward. Furthermore, management stated that it was in the
                  process of establishing a uniform set of terms and conditions for
                  funding opportunities and awards to facilitate active project
                  management. Although management concurred with the need to
                  enforce the terms and conditions of the grant award, it noted that
                  under the terms of the grant it could not force LG Chem Michigan



Page 9                                          Recommendations and Comments
                   to transition production to the Michigan plant. Management also
                   provided technical comments that are addressed in the body of the
                   report, where appropriate.

AUDITOR COMMENTS   Management's comments and corrective actions are responsive to
                   our recommendations. However, in response to management's
                   comments on the unallowable labor costs identified in the report, we
                   note that while these costs comprised less than 1 percent of EERE's
                   contribution to project costs, the scope of our audit was limited and
                   would not necessarily have identified all unallowable costs, because
                   we did not review all project invoices. We modified
                   Recommendation 3 in response to management's assertion that based
                   on the terms of the grant, it could not force LG Chem Michigan to
                   transition production to the Michigan plant. Management's formal
                   comments are included in Appendix 3.




Page 10                                                                   Comments
Appendix 1

OBJECTIVE     To determine whether work performed under the American
              Recovery and Reinvestment Act of 2009 (Recovery Act) grant
              awarded to LG Chem Michigan Inc. (LG Chem Michigan) was
              appropriately managed.

SCOPE         The review was performed between November 2012 and February
              2013, at the National Energy Technology Laboratory in
              Morgantown, West Virginia, and the LG Chem Michigan plant in
              Holland, Michigan.

METHODOLOGY   To accomplish our objective, we:

                   •   Reviewed applicable laws and regulations, including
                       those pertaining to the Recovery Act;

                   •   Interviewed Federal project officers, contract specialists
                       and contracting officers regarding the grant awarded to
                       LG Chem Michigan;

                   •   Reviewed LG Chem Michigan grant documentation
                       obtained from the Department of Energy's Strategic
                       Integrated Procurement Enterprise System;

                   •   Interviewed approximately 30 employees of LG Chem
                       Michigan to obtain information related to activities
                       performed at the plant, including the conduct of volunteer
                       activities, game playing and video watching;

                   •   Performed reviews of LG Chem Michigan's project plans,
                       volunteer program, raw material balances and equipment
                       tracking; and,

                   •   Reviewed related reports issued by the Office of
                       Inspector General and the U.S. Government
                       Accountability Office.

              An exit conference was held with officials on February 6, 2013.




Page 11                                   Objective, Scope and Methodology
Appendix 2


                                     RELATED REPORTS

Office of Inspector General Reports

   •   Audit Report on Follow-up on the Department of Energy's Implementation of the
       Advanced Batteries and Hybrid Components Program Funded under the American
       Recovery and Reinvestment Act (OAS-RA-L-12-05, July 2012). The review identified
       opportunities for the Department of Energy (Department) to improve its administration of
       the Advanced Batteries and Hybrid Components Program. Specifically, the Department
       could better define regulations governing the retention of documentation supporting
       procurement decisions. In addition, the Department should ensure recipients adequately
       safeguard equipment purchased with Federal funds. Lastly, the Department should
       obtain and review required audit reports to ensure the sufficiency of internal controls and
       compliance with laws and regulations.

   •   Audit Report on Progress in Implementing the Advanced Batteries and Hybrid
       Components Program under the American Recovery and Reinvestment Act (OAS-RA-L-
       10-04, April 2010). The audit revealed that the Department had made significant
       progress in implementing the Advanced Batteries and Hybrid Components Program.
       Specifically, the Department had issued a Funding Opportunity Announcement that
       included defined selection criteria and established a grantee selection process that
       incorporated review of all aspects of applicant proposals. In addition, the Department
       awarded funding to 20 grantees, obligating 85 percent of the available American
       Recovery and Reinvestment Act of 2009 funding for projects such as construction of
       factories that will build lithium-ion batteries for hybrid and electric vehicles and facilities
       that will produce materials and components to supply battery manufacturers.
       Furthermore, the Department had established conditions on the use of funds awarded
       until such time as grantees can demonstrate, for example, that they have completed
       environmental reviews. Finally, the Department developed a comprehensive monitoring
       program plan that, if successfully implemented, should reduce the financial, technical and
       marketing risks associated with the projects.

Government Accountability Office Report

   •   Batteries and Energy Storage Federal Initiatives Supported Similar Technologies and
       Goals by Had Key Differences (GAO-12-842, August 2012).




Page 12                                                                            Related Reports
Appendix 3

             MANAGEMENT COMMENTS




Page 13                            Management Comments
Appendix 3 (continued)




Page 14                  Management Comments
Appendix 3 (continued)




Page 15                  Management Comments
Appendix 3 (continued)




Page 16                  Management Comments
                                                                  IG Report No. OAS-RA-13-09

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report that would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
